No. 20-875

 

 

IN THE

Supreme Court of the United States

Sok KONG, TRUSTEE FOR NEXT-OF-KIN OF
Map KONG, DECEDENT,

Petitioner,
v.

CiTy OF BURNSVILLE, MAKSIM YAKOVLEV,
JOHN MOTT, AND TAYLOR JACOBS,

Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Eighth Circuit

BRIEF IN OPPOSITION TO
PETITION FOR WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the brief contains

8,689 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 16, 2021.

 

Wilson-Epes Printing Co., Inc.
